Case: 5:19-cr-00050-DCR-MAS
Doc #: 152 Filed: 12/16/19 Page: 1 of 7 - Page ID#: 904
Judgment in a Criminal Case

AO 245B (Rev. 02/18)

~~astern

Sheet I

Di~trt\:t

or Keatut:k:l'

FI LED

UNITED STATES DISTRICT COURT

DEC 16 2019

Eastern District of Kentucky - Central Division at Lexington

AT LEXINGTON
ROBERT R. CARR
,; ERK U.S. DISTRICT COURT

)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
Lawrence Westbrook, III

JUDGMENT IN A CRIMINAL CASE
Case Number:

5: 19-CR-50-S-DCR-l

USM Number:

22562-032

Jarrod James Beck
Defendant's Attorney

THE DEFENDANT:
IZI pleaded guilty to count(s)
□

2s, 6s, 7s, 9s 10s [DE# 48]
~-~--~--~----------------------------

pleaded nolo contendere to count(s)
which was accepted by the court.

D was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:

Title & Section
18:922(g)(l)
21:84l(a)(l)
18:924(c)(1 )(A)
21:84l(a)(l)
18:924(c)(1 )(A)

Nature of Offense
Felon in Possession ofa Firearm
PWID 50 Grams or More ofMethamphetamine
Possession of a Firearm in Furtherance of a Drug Trafficking Crime
PWID Methamphetamine
Possession of a Firearm in Furtherance of a Drug Trafficking Crime

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

Offense Ended
September 14, 2017
June 23, 2018
June 23, 2018
August 31, 2018
August 31, 2018

Count
2s

6s
7s
9s

lOs

_ _7__ of this judgment. The sentence is imposed pursuant to

D The defendant has been found not guilty on count(s)
IZI Count(s) ls, ~s, 5s, 8s, l ls and Underlying
Indictment [DE#l]

□

is

IZ!

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

December 13 2019

Honorable Danny C. Reeves,
Name and Title of Judge

December 16 2019
Date

5:19-cr-00050-DCR-MAS
AO 245B (Rev.Case:
02/18) Judgment
in a Criminal Case
Sheet 2 - Imprisonment

Doc #: 152 Filed: 12/16/19 Page: 2 of 7 - Page ID#: 905
Judgment -

DEFENDANT:
CASE NUMBER:

Page

2

of

7

Lawrence Westbrook, III
5: 19-CR-50-S-DCR-1

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
ONE HUNDRED TWENTY (120) MONTHS ON COUNT 2S and ONE HUNDRED EIGHTY (180) MONTHS ON CTS 6S AND 9S, TO RUN CONCURRENT
WITH EACH OTHER AND SIXTY (60) MONTHS ON CTS 7S AND IOS TO RUN CONSECUTIVE WITH EACH OTHER AND WITH ALL OTHER
COUNTS, FOR A TOTAL OF 300 MONTHS, AND ALSO TO RUN CONSECTUVE TO ANY SENTENCE IMPOSED IN FAYETTE CIRCUIT COURT
CASE NUMBER 18-CR-1347

The court makes the following recommendations to the Bureau of Prisons:
It is recommended that the defendant undergo a medical evaluation and necessary treatment.
It is recommended that the defendant participate in a substance abuse treatment program.
It is recommended that the defendant be designated to a facility closest to his home for which he may qualify, that can address his
medical needs.

The defendant is remanded to the custody of the United States Marshal.

D

The defendant shall surrender to the United States Marshal for this district:

D a.m.

D

at

D

as notified by the United States Marshal.

D

D

p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D

before 2 p.m. on

D

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

to

Defendant delivered on
at

_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STA TES MARSHAL

Case:
AO 245B (Rev.
02/18) 5:19-cr-00050-DCR-MAS
Judgment in a Criminal Case
Sheet 3 - Supervised Release

Doc #: 152 Filed: 12/16/19 Page: 3 of 7 - Page ID#: 906
Judgment-Page

DEFENDANT:
CASE NUMBER:

3

of

7

Lawrence Westbrook, III
5: 19-CR-50-S-DCR-l

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
THREE (3) YEARS ON CT 2S, FIVE (5) YEARS ON CT 6S, FIVE (5) YEARS ON CT 7S, THREE (3) YEARS ON CT 9S AND FIVE
(5) YEARS ON CT lOS, ALL TO RUN CONCURRENTLY, FOR A TOTAL OF FIVE (5) YEARS

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use ofa controlled substance. You must submit to one drug test within 15 days ofrelease from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
D The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (Check, if applicable.)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (Check, if applicable.)
IZI You must cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
D You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (Check, if applicable.)
D You must participate in an approved program for domestic violence. (Check, if applicable.)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case:
AO 245B (Rev.
02/18) 5:19-cr-00050-DCR-MAS
Judgment in a Criminal Case
Sheet 3A - Supervised Release

Doc #: 152 Filed: 12/16/19 Page: 4 of 7 - Page ID#: 907
Judgment-Page

DEFENDANT:
CASE NUMBER:

4

of

7

Lawrence Westbrook, III
5: 19-CR-50-S-DCR-1

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware ofa change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date _ _ _ _ _ _ _ _ _ _ _ _ __

Case: 5:19-cr-00050-DCR-MAS Doc #: 152 Filed: 12/16/19 Page: 5 of 7 - Page ID#: 908

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 3E - Supervised Release

Judgment-Page

DEFENDANT:
CASE NUMBER:

5

of

7

Lawrence Westbrook, III
5: 19-CR-50-S-DCR-1

SPECIAL CONDITIONS OF SUPERVISION
1.

You must abstain from the use of alcohol.

2.

You must not purchase, possess, use, distribute or administer any controlled substance or paraphernalia related to controlled substances,
except as prescribed by a physician, and must not frequent places where controlled substances are illegally sold, used, distributed or
administered. Further, you may not use or consume marijuana even if such controlled substance were to be prescribed to you by a
physician, licensed professional or other person.

3.

You must provide to the USPO, within 7 (seven) days ofrelease from the custody of the Bureau of Prisons, a written report, in a form
the USPO directs, listing each and every prescription medication in your possession, custody or control. The list must include, but not
be limited to, any prescription medication that contains a controlled substance and encompasses all current, past and outdated or expired
prescription medications in your possession, custody, or control at the time of the report;

4.

You must notify the USPO immediately (i.e., within no later than 72 hours) if you receive any prescription for a medication containing
a controlled substance during the period of supervised release. You must provide the USPO such documentation and verification as the
USPO may reasonably request and in a form the USPO directs;

5.

You must comply strictly with the orders of any physician or other prescribing source with respect to use of all prescription medications;
and,

6.

You must report any theft or destruction of your prescription medications to the U.S. Probation Officer within 72 hours of the theft or
destruction.

7.

You must refrain from obstructing or attempting to obstruct or tamper, in any fashion, with the efficiency and accuracy of any prohibited
substance testing which is required as a condition of release.

8.

You must provide the probation officer with access to any requested financial information.

9.

You must submit your person, properties, homes, residences, vehicles, storage units, papers, computers (as defined in 18 U.S.C. §
1030(e)( 1), but including other devices excluded from this definition), other electronic communications or data storage devices or media,
or offices, to a search conducted by a United States probation officer. Failure to submit to a search will be grounds for revocation of
release. You must warn any other occupants that the premises may be subject to searches pursuant to this condition.

5:19-cr-00050-DCR-MAS
AO 245B (Rev.Case:
02/18) Judgment
in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Doc #: 152 Filed: 12/16/19 Page: 6 of 7 - Page ID#: 909
Judgment - Page

DEFENDANT:
CASE NUMBER:

6

of

7

Lawrence Westbrook, III

5: 19-CR-50-S-DCR-1

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment
TOTALS

JVTA Assessment*

$ NIA

$ 500 ($100/ct)

Fine
$ Waived

Restitution
$ Community Waived

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

D

The determination of restitution is deferred until
after such determination.

D

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

----

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.

Name of Payee

Restitution Ordered

Total Loss**

Priority or Percentage

TOTALS

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

0

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
D

the interest requirement is waived for the

D

the interest requirement for the

□

fine

D

fine
□

D

restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 11 OA, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

5:19-cr-00050-DCR-MAS
AO 245B (Rev.Case:
02/18) Judgment
in a Criminal Case
Sheet 6 - Schedule of Payments

Doc #: 152 Filed: 12/16/19 Page: 7 of 7 - Page ID#: 910
Judgment - Page

DEFENDANT:
CASE NUMBER:

7

of

7

Lawrence Westbrook, III
5: 19-CR-50-S-DCR-1

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

IZl

Lump sum payment of$

□
~

not later than
in accordance with

500.00

□

C,

due immediately, balance due

□

D

, or
□ E, or

B

□ Payment to begin immediately (may be combined with

C

D Payment in equal _ _ _ _ _ _

D

D Payment in equal _ _ _ _ _

~

F below; or

□ C,

□

D, or

□ F below); or

(e.g., weekly, monthly, quarterly) installments of $ _ _ _ _
over a period of
(e.g., months or years), to commence _ _ _ _ _ (e.g., 30 or 60 days) after the date of this judgment; or

(e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
(e.g., months or years), to commence _ _ _ _ _ (e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

D Payment during the term of supervised release will commence within

F

~

_ _ _ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or
Special instructions regarding the payment of criminal monetary penalties:

Criminal monetary penalties are payable to:
Clerk, U. S. District Court, Eastern District of Kentucky
101 Barr Street, Room 206, Lexington KY 40507
INCLUDE CASE NUMBER WITH ALL CORRESPONDENCE
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during the
period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate Financial
Responsibility Program, are made to the clerk of the court.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
D

Joint and Several

Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount, and
corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

IZl

The defendant shall forfeit the defendant's interest in the following property to the United States:
(1) $1,741 in U.S. Currency; (2) $12,370 in U.S. Currency; (3) Springfield Armory, Model XD-45, Cal: .45 ACP pistol, SN:
GM457244; (4) Sig Sauer, Model: P238, Cal: .380 pistol, SN: 27B328103; (5) Seven (7) assorted rounds of .380 caliber ammunition;
(6) Twenty-two (22) assorted rounds of .45 caliber ammunition; and (7) One (1) extra firearm magazine for the Springfield Armory,
Model: XD-45, Cal: .45 ACP pistol, SN: GM457244.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) NTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

